CERTIFICATE OF COMPLIANCE
I, Kenneth R. Williams, counsel for the Petitioners, hereby certify that this
petition for a writ of certiorari complies with the Order of this Court dated April
15, 2020 (589 U.S.) which provides that, prior to a ruling on a petition for a writ of
certiorari, a single paper copy of the document, formatted under the standards set
forth in Supreme Court Rule 32.2 on 8½ x 11 inch paper, may be filed. Also, as
required by Rule 33.2(b), I certify that this petition contains 27 pages, excluding
the parts of the document that are exempted by Rule 33.1(d).
Dated: April 20, 2021.
Respectfully submitted,
/s/ Kenneth R. Williams
KENNETH R. WILLIAMS
Counsel for Petitioners

